No.

 

 

In THE
Supreme Court of the United States

THERESA ORTLOFF,

Petitioner,
v.

DAVE TRIMMER, STEVEN VONHEEDER,
ELIZABETH Kosa, LYNNE GRIFFITH, AND
Amy SCARTON,

Respondents.

On Petition for a Writ of Certiorari
To the United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,994 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 19, 2019.

 

Wilson-Epes Printing Co., Inc.
